<html>
<title> - S. 2610, THE TRIBAL ENERGY REAUTHORIZATION ACT; AND S. 2891, THE TRIBAL WILDLIFE CORRIDORS ACT OF 2019</title>
<body><pre>[Senate Hearing 116-198]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-198
 
S. 2610, THE TRIBAL ENERGY REAUTHORIZATION ACT; AND S. 2891, THE TRIBAL 
                     WILDLIFE CORRIDORS ACT OF 2019

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2020

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        




                U.S. GOVERNMENT PUBLISHING OFFICE 
40-490 PDF             WASHINGTON : 2020 



                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2020....................................     1
Statement of Senator Cortez Masto................................    25
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................    23
Statement of Senator Smith.......................................    21
Statement of Senator Udall.......................................     2

                               Witnesses

Auginaush, Sr., Hon. Raymond, Council Member, White Earth Nation.    15
    Prepared statement...........................................    16
Frost, Kevin R., Director, Office of Indian Energy Policy and 
  Programs, U.S. Department of Energy............................     3
    Prepared statement...........................................     6
Guertin, Stephen, Deputy Director for Program Management and 
  Policy, U.S. Fish and Wildlife Service.........................     8
    Prepared statement...........................................    10
Montoya, Hon. Lawrence, Governor, Pueblo of Santa Ana............    11
    Prepared statement...........................................    13

                                Appendix

Joseph, Hon. Victor, Chief/Chairman, Tanana Chiefs Conference, 
  prepared statement.............................................    29
McConville, Drew, Senior Managing Director, Government Relations, 
  The Wilderness Society, letter of support......................    30
Response to written questions submitted by Hon. Tom Udall to:
    Kevin R. Frost...............................................    31
    Stephen Guertin..............................................    33


                       S. 2610, THE TRIBAL ENERGY

                 REAUTHORIZATION ACT; AND S. 2891, THE

                 TRIBAL WILDLIFE CORRIDORS ACT OF 2019

                              ----------                              


                        WEDNESDAY, MARCH 4, 2020


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. We will call this legislative 
hearing to order.
    Today, the Committee will consider two bills, S. 2610, the 
Tribal Energy Reauthorization Act, and S. 2891, the Tribal 
Wildlife Corridors Act of 2019.
    On October 16th, 2019, Senator Murkowski introduced S. 
2610, along with Senator Smith as an original cosponsor. 
Senator Sullivan is also a cosponsor.
    The Department of Energy's Office of Indian Energy Policy 
and Programs is authorized to fund and implement a variety of 
programmatic activities that assist Indian tribes and Alaska 
Native villages with energy development: capacity building, 
energy cost reduction, and electrification of Indian lands and 
homes.
    This bill would reauthorize the Office of Indian Energy and 
the Energy Loan Guarantee Program through 2030. The bill also 
amends definitions of the Energy Policy Act of 1992 in order 
top provide flexibility on electrifying Indian Country and 
Alaska. The bill mandates the Department of Energy submit a 
report to Congress on an Indian energy Arctic strategy.
    On November 19th, 2019, Senator Udall introduced S. 2891, 
the Tribal Wildlife Corridors Act of 2019. Senators Booker, 
Harris, Blumenthal, Sanders, Tester, Smith, and Warren are 
original cosponsors. S. 2891 will increase the capacity of 
tribal communities to coordinate wildlife management strategies 
across tribal lands in the west. Tribes will work closely with 
the Department of Interior to establish and framework for 
advancing habitat connectivity in Indian Country. This bill 
will restore historical habitats and facilitate the movement of 
native species through tribal lands.
    Before turning the bills, I want to ask Vice Chairman 
Senator Udall for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman, and thank you very 
much for scheduling today's hearing. I just want to note our 
fellow Senator that is here today, Senator Smith, it is her 
birthday.
    The Chairman. Oh, my goodness.
    Senator Udall. She has been celebrated a lot, so I am not 
sure we need to sing Happy Birthday.
    The Chairman. We certainly need to have the record reflect 
a hearty Happy Birthday.
    Senator Udall. Absolutely.
    [Laughter.]
    Senator Udall. Thank you, Mr. Chairman.
    I would like to welcome Santa Ana Pueblo's Governor, 
Lawrence Montoya. I commend the Pueblo's strong leadership to 
wildlife and cultural preservation. Governor Montoya has played 
an active role to amplify the importance of wildlife corridors. 
Welcome, Governor Montoya. His Lieutenant Governor, the 
Pueblo's Lieutenant also, Lieutenant Governor Sanchez, is in 
the audience. He is sitting right behind the Governor.
    In the United States, we are losing habitat at an 
astounding rate, a football field's worth every 30 seconds. 
That is leading to a loss of biodiversity and fragmentation. 
The fragmentation of remaining habitat by roads and other 
development further threatens animal and plant species. 
Roadways supporting human migration often pose barriers to safe 
wildlife migration. I know the Pueblo is very interested in 
wildlife migration. Establishing fish and wildlife migration 
corridors is one of the most effective tools we have to 
maintain fish, wildlife, and plant species, at a time when the 
ecosystems are under threat like never before.
    With over 1 million automobile accidents per year involving 
wildlife, costing more than $8 billion in medical costs and 
medical repairs, supporting wildlife corridors has become a 
public health and safety issue. My bill, S. 2891, encourages 
tribes to identify, use, and expand wildlife migration 
corridors and habitat on tribal lands and in their communities. 
This new authority for tribes is critically important.
    In 2018, the Secretary of Interior issued an order that 
directs Interior bureaus to partner with select western States 
to conserve and improve the quality of western big game 
migration corridors and winter range on Federal lands. But 
tribes were left out. My bill would fill that gap. It provides 
authority for tribes to establish, manage or expand a tribal 
wildlife corridor, and it compensates for another limitation in 
the Secretarial order by covering all native species, not just 
big game species.
    Recognition of the importance of wildlife corridors across 
tribal, State and Federal boundaries is growing. Last year, my 
home State of New Mexico became the first State in the Nation 
to enact comprehensive legislation to require the State to 
develop a wildlife corridors action plan to identify wildlife 
corridors. Just a few weeks ago, the Virginia General Assembly 
passed legislation to adopt its own comprehensive program, and 
the Governor of Wyoming issued an executive order designating 
wildlife corridors.
    S. 2891 moves us toward addressing the movement of wildlife 
across multiple jurisdictional boundaries, and works to 
overcome the fragmentation of our landscape through roads, 
fences, and other barriers. Perhaps most importantly, it takes 
concrete steps to bolster the use of wildlife corridors on 
Indian lands and adjacent public lands in recognition of the 
importance and respect accorded to fish and wildlife by Native 
American people.
    Turning to Senator Murkowski's bill, I look forward to 
hearing Mr. Frost's testimony. I am interested to find out why 
the Administration recommends a cut of over 50 percent to the 
Department of Energy's Indian Energy Planning and Management 
Assistance Program, a valuable program that has funded 
renewable energy projects for the tribes in New Mexico.
    I just want to notify Senator Cortez Masto that has a 
birthday woman sitting to her left there. It's her birthday 
today.
    [Laughter.]
    Senator Udall. And turning it back, thank you, Mr. 
Chairman. We really appreciate you here.
    The Chairman. Thank you, Vice Chairman Udall.
    Opening statements from Senator Smith or Senator Cortez 
Masto?
    Senator Cortez Masto. I will do it when I ask my questions. 
Thank you, Mr. Chairman.
    The Chairman. All right, we will turn to our witnesses. 
First, Mr. Kevin Frost, Director, U.S. Department of Energy, 
Office of Indian Energy Policy and Programs here in Washington, 
D.C. Mr. Stephen Guertin, Deputy Director for Program 
Management and Policy, U.S. Fish and Wildlife Services here in 
D.C. The Honorable Lawrence Montoya, Governor of Pueblo Santa 
Ana, Santa Ana Pueblo, New Mexico. And the Honorable Raymond 
Auginaush, Sr., Councilman, White Earth Nation, Ogema, 
Minnesota.
    Thank you, all of you, for being here. We appreciate it 
very much. I want to remind the witnesses that your full 
written testimony will be part of the official record, and if 
you would, please, keep your opening statement to no more than 
five minutes, so that will allow time for questions.
    With that, Mr. Frost, if you would begin.

       STATEMENT OF KEVIN R. FROST, DIRECTOR, OFFICE OF 
  INDIAN ENERGY POLICY AND PROGRAMS, U.S. DEPARTMENT OF ENERGY

    Mr. Frost. Thank you, Senator.
    Good afternoon, Chairman Hoeven, Ranking Member Udall, and 
members of the Committee. My name is Kevin R. Frost, and it is 
an honor and a privilege to serve at the Department of Energy 
as the Director of the Office of Indian Energy Policy and 
Programs. DOE is charged with, among other responsibilities, 
providing Indian Country with assistance for energy development 
activities.
    Before I talk about the Office of Indian Energy, I would 
like to introduce myself to the members of the Committee. I am 
an enrolled member of the Southern Ute Tribe out of Colorado. 
Prior to becoming first the Deputy Director and then the 
Director, I served as a councilperson for my tribe.
    As some of you may know, the Southern Ute Tribe has been at 
the forefront of natural resource development both on and off 
the Southern Ute reservation. I have also lived without running 
water and electricity and lived a subsistence lifestyle. 
Growing up, I also busted coal, chopped wood, and hauled water.
    This experience taught me to maximize limited resources. 
Although this isn't unique to Indian Country, I can say that I 
know the struggle. I understand how transformational it is to 
be able to have the luxury and privilege to flip a light 
switch, as well as setting a thermostat for warmth, in addition 
to having the financial ability to go down to the local grocery 
store or trading post to purchase food.
    These lessons serve me well in the capacity as the 
Director. In my time as Director, a little over one year, the 
office has been solidifying its existing relationships across 
the Federal family to help tribes achieve their energy 
development goals.
    The Office of Indian Energy has also been collaborating 
with several DOE offices as well. I have listened and learned 
from the offices' constituency about how the office's work 
benefits tribal communities. For a small office, much is 
accomplished on a daily, monthly and annual basis.
    I would like to acknowledge the entire Indian Energy team, 
both Federal employees and contractors, for their tireless 
efforts and dedication to the office's mission. The mission of 
the Office of Indian Energy, or OIE, is to maximize the 
development and deployment of strategic energy solutions that 
benefit tribal communities by providing American Indians and 
Alaska Natives with the knowledge, skills, and resources needed 
to implement successful energy solutions.
    The OIE uses a three-pronged approach to help its 
constituents harness their vast undeveloped resources through 
financial assistance, technical assistance, and education and 
capacity building. Financial assistance is in the form of 
competitive grants to accelerate the deployment of energy 
infrastructure on tribal lands. In addition, the OIE provides 
technical assistance to further recognize Indian tribes, 
including Alaska native villages, tribal energy development 
organizations, and other organized tribal groups, at no cost.
    Finally, education and capacity building is accomplished by 
supporting tribal efforts to build internal capacity to 
navigate energy projects.
    At this time, I would like to speak briefly about S. 2610. 
The department does not have a position on S. 2610, but I would 
like to highlight a few areas, if I may.
    Cost sharing is a foundational element of responsible 
expenditure of taxpayer funds, and the department has concerns 
about completely removing the requirement. It is true that the 
requirement of 50 percent cost share for demonstration and 
commercial application activity has sometimes placed an 
unaffordable burden on many economically disadvantaged tribes. 
However, we do not believe that the wholesale elimination of 
the cost sharing requirement is the best tool to address such a 
situation.
    Any reduction in cost sharing may significantly impact the 
OIE's ability to assist as many American Indian and Alaska 
Native communities as possible, as more generous Federal cost 
share for some projects would limit the total number of 
projects could fund. However, tribal cost share translates into 
increased OIE funding per grant, fewer tribal grants and 
therefore, fewer tribes benefitting from the same level of 
funding.
    When it comes to technical assistance and as a best 
practice, the OIE currently strives to use local partnerships 
for technical assistance. For example, the OIE has an existing 
interagency agreement with the Denali Commission to deliver 
technical assistance in Alaska. This benefits the OIE's Alaska 
constituency by harnessing local knowledge and expertise, which 
also includes cultural knowledge and protocols to address a 
specific challenge or help move a project forward.
    In terms of having a Federal government grant an 
opportunities liaison for Indian Tribes and Alaska Natives, the 
entirety of the OIE staff is tasked with this liaison function, 
including the dissemination of tribal energy-related funding 
opportunities to the extent practicable. Furthermore, 
information on tribal energy-related funding opportunities, 
regardless of source, and across all Federal agencies, 
continues to be posted on the OIE website and disseminated by 
email to over 28,000 subscribers.
    With respect to the OIE's tribal energy mission, the 
function is currently deemed fulfilled with existing staff. 
Many Arctic issues, which include national interests in safety, 
security, and international affairs, are beyond the scope of 
Indian Energy's limited resources. As such, any strategy would 
need to be developed in coordination and with input from Alaska 
Native constituents, and would require more than 180 days to 
achieve.
    Given these considerations, it may be more appropriate for 
a comprehensive Indian Energy in the Arctic Strategy to be 
developed by the Secretary's office, in coordination with the 
State of Alaska, and the Secretary of the Interior, and only 
after extensive engagement with and input from Alaska Native 
villages, Alaska Native Regional Corporations and village 
corporations. The Office of Indian Energy will, to the best of 
our abilities and within our limited resources, support any 
Arctic efforts the Secretary and the Department undertake.
    Thank you again for the opportunity to testify today on 
behalf of DOE. The Department appreciates the ongoing 
bipartisan support for its successful efforts to address Indian 
Country's energy development challenges in the past, and looks 
forward to working with the Committee on the legislation on 
today's agenda and any future legislation.
    The Office talks about partnerships, and I would like the 
Committee to know that it is not only the partnerships with 
Indian Country that make a difference, but also partnerships 
with committees such as this one, to help move Indian Country 
forward, and provide help and inspiration for the 574 
federally-recognized tribes.
    I welcome your questions.
    [The prepared statement of Mr. Frost follows:]

Prepared Statement of Kevin R. Frost, Director, Office of Indian Energy 
             Policy and Programs, U.S. Department of Energy
    Good afternoon, Chairman Hoeven, Ranking Member Udall and Members 
of the Committee. My name is Kevin R. Frost, and it is an honor and a 
privilege to serve at the Department of Energy (DOE or the Department), 
as the Director of the Office of Indian Energy Policy and Programs. DOE 
is charged with, among other important responsibilities, providing 
Indian Country with assistance for energy development activities. 
Within this charge, the work being conducted by the Office of Indian 
Energy is setting the course for various advancements in tribal energy 
development. Issues such as energy storage, improving energy 
efficiency, and capacity building, create breakthroughs for how Indian 
Country is utilizing resources to address energy development goals.
    Thank you for the opportunity to testify today on behalf of the 
Department regarding S. 2610, the Tribal Energy Reauthorization Act. I 
will highlight the work undertaken in delivering a mission that is 
providing access to electricity and energy development on tribal lands.
The Office of Indian Energy's Mission
    The mission of the Office of Indian Energy is to maximize the 
development and deployment of strategic energy solutions that benefit 
tribal communities by providing American Indians and Alaska Natives 
with the knowledge, skills, and resources needed to implement 
successful strategic energy solutions. With 574 Federally recognized 
tribes, over 200 Alaska Native Village Corporations, and 13 Alaska 
Regional Corporations, the Office of Indian Energy uses a three-pronged 
approach to help its constituents harness their vast and undeveloped 
resources through: (1) financial assistance; (2), technical assistance 
; and (3) education and capacity building.
    Financial assistance is in the form of competitive grants to 
accelerate the deployment of energy infrastructure on tribal lands. To 
assist with deployment, and contingent upon Congressional 
Appropriations, the Office of Indian Energy provides what has been to 
date an annual Funding Opportunity Announcement (FOA). The annual FOA 
is consistent with the principles of tribal sovereignty and self-
determination, with an all-of-the-above energy strategy that recognizes 
the breadth of energy resources on Tribal Lands, and each tribe's right 
to use them as they see fit. Projects sought under the FOA are fuel and 
technology neutral and intended to promote energy independence and 
economic development. Creating local employment is an ancillary benefit 
of annual FOAs through the installation and use of commercially 
available energy technologies that are best suited to meet the needs of 
the individual Tribes or Alaska Native organizations. From 2010-2019, 
DOE has invested nearly $85 million in order to support more than 180 
tribal energy projects valued at over $180 million, including tribal 
cost-share.
    In addition, the Office of Indian Energy provides technical 
assistance to federally recognized Indian tribes, including Alaska 
Native Villages, tribal energy development organizations, and other 
organized tribal groups at no cost. The goal of technical assistance is 
to address a specific challenge or fulfill a need that is essential to 
a current project's successful implementation. The intended result is a 
tangible product or specific deliverable designed to help move a 
project forward. Technical assistance is provided through technical 
analysis, financial analysis, and strategic energy planning.
    Education and capacity building is accomplished by supporting 
tribal efforts to build internal capacity to navigate tribal energy 
projects by providing regional workshops, webinars, Tribal leader 
forums, Science, Technology, Engineering, and Mathematics (STEM) 
education, an online energy resource library and an annual Program 
Review in which recipients of grants are able to participate and share 
valuable lessons learned.
S. 2610 Tribal Energy Reauthorization Act
    The Department does not have a position on S.2610 at this time.
Cost Sharing
    Section 2(b)(2)(D) of this bill amends Section 2602(b) of the 
Energy Policy Act of 1992 (25 U.S.C. 3502(b)) by removing the cost 
sharing requirements under Section 988 of the Energy Policy Act of 2005 
(42 U.S.C. 16352). Cost-sharing is a foundational element of 
responsible expenditure of taxpayer funds and the Department would has 
significant concerns about completely removing the requirement. It is 
true that the requirement under Section 988 for 50 percent cost share 
for demonstration and commercial application activity has sometimes 
placed an unaffordable burden on many economically disadvantaged Indian 
tribes, however, we do not believe that a wholesale elimination of the 
cost-sharing requirement is the best tool to address such a situation. 
The Secretary already has the authority to reduce cost share when 
``necessary and appropriate, taking into consideration any 
technological risk relating to the activity''. If the Committee wishes 
to expand the Secretary's authority to reduce cost share for 
economically disadvantaged tribes, then a narrower amendment to the 
Secretary's exemption authority would be more appropriate.
    Section 2(b)(2)(D) of this bill would, also require that the 
Director ``take into consideration the fiscal ability of the Indian 
tribe, intertribal organization, or tribal energy development 
organization to meet a cost share requirement'' and, ``if appropriate, 
offer flexibility in the grant application process with respect to the 
amount of cost-sharing to be required.'' Specifically, the bill 
requires that fiscal ability be taken into consideration ``in 
determining any cost share requirements of an Indian tribe, intertribal 
organization, or tribal energy development organization''. As written, 
therefore, a case-by-case fiscal need determination would appear to be 
necessary for each Indian tribe, intertribal organization, or tribal 
energy development organization. This case-by-case analysis is 
extremely resource intensive as was demonstrated by the Office of 
Indian Energy's previous experience in applying such a methodology. In 
addition, this previous experience demonstrated that the evaluation of 
financial indices was not necessarily an indicator of fiscal need. 
Therefore, we respectfully request that the Director be given the 
discretion to establish a methodology that meets the intent of the 
bill, without the requirement for an individual case-by-case analysis 
for each grant applicant.
    Any reduction in cost share may significantly impact the Office of 
Indian Energy's ability to assist as many American Indian and Alaska 
Natives communities as possible, as more generous Federal cost-share 
for some projects would limit the number of total projects the office 
could fund. Lower tribal cost-share translates into increased DOE 
funding per grant, fewer tribal energy projects, and therefore fewer 
tribes benefiting from the same level of funding.
Local Partnerships for Technical Assistance
    Section 2(d) of this bill, which amends Section 217 of the 
Department of Energy Organization Act (42 U.S.C. 7144e), requires the 
Director, to the maximum extent practicable to, ``give priority to 
partnering with State and local organizations that do not have 
comparable local experience, relationships, knowledge; and with respect 
to technical assistance provided to Indian tribes and Native Villages, 
partner with local and regional organizations.''
    As a best practice, the Office of Indian Energy currently strives 
to use local partnerships for technical assistance. The Office of 
Indian Energy has an existing Interagency Agreement with the Denali 
Commission to deliver technical assistance in Alaska. This benefits the 
Office of Indian Energy's Alaska constituency by harnessing local 
knowledge and expertise, which also includes cultural knowledge and 
protocols to address a specific challenge or help move a project 
forward. Technical assistance funding is spent locally and helps 
provide in-state economic benefits. Currently, the Office of Indian 
Energy is actively seeking technical assistance partnerships in the 
lower 48 as well.
Federal Government Grants and Opportunities Liaison for Indian Tribes 
        and Alaska Natives
    Section 2(d) of this bill, which amends Section 217 of the 
Department of Energy Organization Act (42 U.S.C. 7144e), requires the 
Director, ``[t]o the maximum extent practicable,'' to ``designate 
appropriate staff to serve as liaison to Indian tribes and Native 
villages to ensure that Indian tribes and Native villages are aware of 
relevant grants and funding opportunities across all Federal 
agencies.''
    We respectfully submit that this provision is not necessary. 
Currently, the Office of Indian Energy's Alaska Program Manager is 
specifically tasked with this function for Alaska. A comparable 
position is currently in the process of being filled for the contiguous 
48 United States, in the interim, the entirety of Office of Indian 
Energy's staff is tasked with this liaison function, including the 
dissemination of tribal energy related funding opportunities to the 
extent practicable. Furthermore, information on tribal energy-related 
funding opportunities, regardless of source and across all Federal 
agencies, continues to be posted on the Office of Indian Energy website 
and disseminated via email to over 28,000 subscribers. With respect to 
the Office of Indian Energy's tribal energy mission, this function is 
currently being fulfilled with existing staff.
Indian Energy in the Arctic Strategy
    Section 2(d) of this bill, which amends Section 217 of the 
Department of Energy Organization Act (42 U.S.C. 7144e), requires the 
Director to ``develop, and submit to Congress a report describing, a 
strategy, to be known as the `Indian Energy in the Arctic Strategy'' 
within 180 days within enactment of this bill.
    Many Arctic issues, which include national interests in safety, 
security, and international affairs, are beyond the scope of Indian 
Energy's limited resources. The Office of Indian Energy's relationship 
with Indian tribes, Alaska Native Villages, and Regional and Village 
corporations is in line with self-determination and tribal sovereignty 
and allows these entities the ability to utilize their resources as 
they see fit; any assistance is provided only upon request and with the 
consent of the Indian tribes. As such, any strategy would need to be 
developed in coordination and input from Alaska Native constituents, 
and would require more than 180 days to achieve. Given these 
considerations, it may be more appropriate for a comprehensive Indian 
Energy in the Arctic Strategy to be developed by the Secretary's 
Office, in coordination with the State of Alaska, and the Secretary of 
the Interior, and only after extensive engagement with and input from 
Alaska Native villages, Alaska Native Regional Corporations and village 
corporations. The Office of Indian Energy, will, to the best of our 
abilities and within our limited resources, support any Arctic efforts 
the Secretary and the Department undertake.
Conclusion
    Thank you again for the opportunity to testify today on behalf of 
DOE. The Department appreciates the ongoing bipartisan support for its 
successful efforts to address Indian Country's energy development 
challenges in the past, and looks forward to working with the Committee 
to address these challenges now, and in the future.
    I welcome your questions at this time.

    The Chairman. Thank you, Mr. Frost.
    Now we will turn to Mr. Guertin.

   STATEMENT OF STEPHEN GUERTIN, DEPUTY DIRECTOR FOR PROGRAM 
             MANAGEMENT AND POLICY, U.S. FISH AND 
                        WILDLIFE SERVICE

    Mr. Guertin. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall, and members of the Committee. I am Steve Guertin, Deputy 
Director for the U.S. Fish and Wildlife Service. I appreciate 
the opportunity to testify on S. 2891, the Tribal Wildlife 
Corridors Act of 2019.
    Our mission is working with others to conserve, protect, 
and enhance fish, wildlife, and plants and their habitats for 
the continuing benefit of the American people. It is a priority 
of the Service and of this Administration to increase access to 
outdoor recreational opportunities, reduce regulatory burdens, 
recover imperiled species, and ensure tribal sovereignty is 
respected.
    Habitat loss and fragmentation are widely recognized as 
among the most significant threats to biodiversity. The 
viability of many wildlife populations is dependent on their 
ability to move. This includes daily movements for resources, 
migrations between seasonal ranges, long-range gene dispersal, 
and range shifts over time in response to changing conditions.
    Migration patterns for some species can cover hundreds of 
miles and cross Federal, State, tribal, as well as private 
lands. Tribes are essential partners, and the Service 
recognizes how important tribes are to the conservation of our 
Nation's wildlife and natural habitats.
    S. 2891 would allow federally recognized tribes to nominate 
a habitat corridor for fish, wildlife, or plants on Indian 
lands for destination as a tribal wildlife corridor. That 
designation would be determined by the Service acting as the 
agent for Secretary of the Interior in consultation with the 
Bureau of Indian Affairs. Such a designation would further 
enable tribes to consult with the department and coordinate 
with the U.S. Forest Service to improve habitat connectivity 
between tribal and public lands.
    The bill also authorizes USDA, the Department of 
Agriculture, to prioritize the expansion a tribal wildlife 
corridor onto private lands under certain voluntary Farm Bill 
conservation programs, and the legislation requires the Service 
to provide technical assistance to tribes and to establish a 
new grant program to support tribal wildlife corridors.
    The Department of the Interior supports the intent of S. 
2891 to improve coordination between tribes and Federal 
agencies. Conserving wildlife corridors using a voluntary and 
non-regulatory approach is a priority for the Administration, 
as reflected in Secretarial Order 3362. The Secretarial Order 
was issued in 2018 to improve habitat quality in western big 
game winter ranges and migration corridors for pronghorn, elk, 
and mule deer.
    While tribes are specifically not mentioned in the 
Secretarial Order, the department certainly supports projects 
and is providing technical assistance to several tribes. For 
example, the U.S. Geological Survey in Interior is leading a 
corridor mapping team that is working with the Southern Ute 
Indian Tribe and Jicarilla Apache Nation to map GPS collar data 
collected by the tribes from deer and elk in southern Colorado 
and northern New Mexico.
    Additionally, through a partnership among the department, 
industry, the National Fish and Wildlife Foundation and others, 
tribes are eligible to apply for funding for projects, or for 
projects to be conducted on their land. In the first grant 
cycle, the foundation funded a project for the San Juan Basin 
of Colorado. That project facilitates the safe movement of deer 
and elk via two newly constructed overpass and underpass 
structures, so they can access summer and winter ranges on 
lands of the Southern Ute Tribe as well as Federal, State and 
private land.
    The Service also administers our Tribal Wildlife Grants 
Program, which provides competitive grant awards to tribes for 
projects that benefit fish, wildlife, and habitats of cultural 
or traditional importance. Many of the projects we support 
address fish and wildlife corridors and habitat connectivity. 
For example, we recently awarded a grant to the Penobscot 
Indian Nation in Maine to protect and restore endangered 
Atlantic salmon within the Penobscot River watershed. The 
project involved population and habitat surveys, planting of 
eggs and stocking of adult fish, and removal of barriers to 
fish passage on tribal lands.
    We appreciate the Committee's support of wildlife 
conservation on tribal lands and wildlife resources. The 
Administration is providing technical and financial support for 
the conservation of fish and wildlife habitat, including 
corridors on tribal lands.
    To reiterate, we support the intent of S. 2891, and welcome 
the opportunity to work with the Committee to ensure any 
corridor legislation complements and does not deter from the 
ongoing and existing work of the Administration and our 
partners.
    Thank you for the opportunity to testify. I look forward to 
answering any questions you might have.
    [The prepared statement of Mr. Guertin follows:]

  Prepared Statement of Stephen Guertin, Deputy Director for Program 
         Management and Policy, U.S. Fish and Wildlife Service
Introduction
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. I am Stephen Guertin, Deputy Director for Policy for the 
U.S. Fish and Wildlife Service (Service) within the Department of the 
Interior (Department). I appreciate the opportunity to present the 
Department's views on S. 2891, the Tribal Wildlife Corridors Act of 
2019.
    The Service's mission is ``working with others to conserve, protect 
and enhance fish, wildlife, and plants and their habitats for the 
continuing benefit of the American people.'' The Service is the only 
agency in the Federal government whose primary responsibility is the 
conservation of fish and wildlife resources for the American public. 
The Service's work helps ensure a healthy environment, and provides 
affordable, accessible, and premier opportunities for Americans to 
enjoy outdoor recreation and our shared natural heritage. It is a 
priority of the Service and of this Administration to increase access 
to outdoor recreational opportunities, reduce regulatory burdens, 
recover imperiled species, and ensure that Tribal sovereignty is 
respected.
    The Service is responsible for the conservation of wildlife 
resources, including endangered and threatened species, migratory 
birds, certain marine mammals, and certain native and 
interjurisdictional fish. The Service works closely with States, 
Tribes, other Federal agencies and private landowners through a variety 
of authorities to conserve fish, wildlife and plants and is committed 
to implementing proactive conservation measures in coordination with 
partners and stakeholders.
    Habitat loss and fragmentation are widely recognized as among the 
most significant threats to biodiversity. The viability of many 
wildlife populations is dependent on the ability to move, including 
daily movements for resources, migrations between seasonal ranges, 
long-range gene dispersal, and range shifts over time in response to 
changing conditions. Migration patterns for some species can cover 
hundreds of miles and cross Federal, State, Tribal, and private lands. 
Tribal lands span 56 million acres in the continental United States, 
representing a significant land base. Tribes are important conservation 
partners, and the Service recognizes the valuable role they play in 
efforts to conserve our nation's wildlife and the habitat upon which 
they depend.
    We appreciate the Committee's interest in wildlife conservation. We 
offer the following comments on S. 2891 and look forward to discussing 
these views with the Committee.
S. 2891, Tribal Wildlife Corridors Act of 2019
    S. 2891 would allow federally recognized Tribes to nominate a 
habitat corridor for fish, wildlife, or plants on Indian land to be 
designated by the Service, in consultation with the Bureau of Indian 
Affairs, as a ``Tribal Wildlife Corridor.'' In S. 2891, this 
designation would further enable Tribes to consult with the Department 
and coordinate with the U.S. Forest Service to improve habitat 
connectivity between the Tribal Wildlife Corridor and public lands. S. 
2891 authorizes the U.S. Department of Agriculture to prioritize 
expansion of a Tribal Wildlife Corridor onto private lands under 
certain Farm Bill conservation programs. The legislation also requires 
the Service to provide technical assistance to Tribes and to establish 
a grant program to support Tribal Wildlife Corridors.
    The Department supports the intent of S. 2891 to improve 
coordination between Tribes and federal agencies in efforts to conserve 
wildlife. Conserving wildlife corridors using a voluntary and non-
regulatory approach is a priority for this Administration. For example, 
in 2018, the Secretary of the Interior issued Secretarial Order 3362 
(S.O. 3362) to improve habitat quality in western big game winter range 
and migration corridors for pronghorn, elk, and mule deer.
    While Tribes are not specifically mentioned in S.O. 3362, the 
Department is supporting projects and providing technical assistance to 
several Tribes. For example, the U.S. Geological Survey (USGS) is 
leading a Corridor Mapping Team that is working with the Southern Ute 
Indian Tribe and Jicarilla Apache Nation to map GPS collar data 
collected by the Tribes from deer and elk in southern Colorado and 
northern New Mexico. USGS is also conducting a GPS collar tracking 
study on deer and elk migrations across the Wind River Reservation. The 
project is a collaboration with the Eastern Shoshone and Northern 
Arapaho Tribal Game and Fish Department, the Service, and The Nature 
Conservancy. Additionally, through a partnership among the Department, 
industry, the National Fish and Wildlife Foundation (NFWF), and others, 
Tribes are eligible to apply for funding for projects, or for projects 
to be conducted on their land in support of S.O. 3362. In the first 
grant cycle, NFWF funded a project in the San Juan Basin of Colorado to 
facilitate safe movement of deer and elk to access summer and winter 
range habitat on the Southern Ute Indian, Federal, State, and private 
lands via two newly constructed overpass and underpass structures.
    The Service's Native American Program (Program) works to enhance 
Government-to-Government relations with federally recognized Indian 
Tribal governments by coordinating the consultation process between the 
Service and Tribes, ensuring that Native American interests are 
considered in project planning and implementation, and that national 
plans and actions implement the Service's Native American Policy. The 
Program supports training for Service employees to address Tribal trust 
responsibilities, and coordinates and supports workshop and training 
opportunities for Tribal members on the preparation of grant 
applications and other topics. The Program also administers the Tribal 
Wildlife Grants (TWG) Program, which provides competitive grant awards 
to Tribes for projects that benefit fish, wildlife, and habitat of 
cultural or traditional importance. Since its inception in 2003, the 
TWG Program has awarded more than $94 million to Federally recognized 
Native American Tribes, supporting more than 456 conservation projects, 
many of which address fish and wildlife corridors and habitat 
connectivity.
    For example, the Service awarded a grant to the Penobscot Nation in 
Maine to protect and restore its historic sustenance fisheries, 
including endangered Atlantic salmon, within the Penobscot River 
watershed. The project involved population and habitat surveys, 
planting of eggs and stocking of adult fish, and removal of barriers to 
fish passage on Tribal lands, among other activities. These are just a 
sample of the many grants the Service has awarded to Tribes across the 
country through the Tribal Wildlife Grants Program to address fish and 
wildlife corridors and habitat connectivity.
Conclusion
    The Service appreciates the Committee's interest in and support of 
wildlife conservation on Tribal lands. Habitat loss and fragmentation 
are among the most important threats to biodiversity, and the viability 
of many wildlife populations is dependent on the ability to migrate. 
Tribes are important conservation partners, and the Service recognizes 
the valuable role they play in efforts to conserve our nation's fish 
and wildlife and the habitat upon which they depend. The Administration 
is providing technical and financial support for the conservation of 
fish and wildlife and habitat, including corridors on Tribal lands. We 
support the intent of S. 2891 and welcome the opportunity to work with 
the Committee to ensure any corridor legislation complements, and does 
not deter, the existing work of the Administration as we continue to 
work with States, Tribes, and other partners to improve the habitat 
conditions in migration corridors.
    Thank you for the opportunity to testify on S. 2891, the Tribal 
Wildlife Corridors Act of 2019.

    The Chairman. Thank you, Mr. Guertin.
    Now, Governor Montoya.

 STATEMENT OF HON. LAWRENCE MONTOYA, GOVERNOR, PUEBLO OF SANTA 
                              ANA

    Mr. Montoya. Good afternoon, Chairman Hoeven, Ranking 
Member Udall, and members of the Committee. On behalf of myself 
and the Santa Ana government, thank you for giving us this 
opportunity to testify on S. 2891.
    Thank you for the opportunity to testify regarding the 
Tribal Wildlife Corridors Act of 2019. My name is Lawrence 
Montoya. I serve as the Governor of the Pueblo of Santa Ana, a 
community of approximately 950, located about 10 miles north of 
Albuquerque, New Mexico.
    On behalf of the Pueblo, I would like to share our strong 
support for S. 2891. This bill would provide critically needed 
authorities to establish and support wildlife corridors on 
tribal lands and enhance coordination with Federal land use 
plans.
    Since time immemorial, our people, the Tamayame, or the 
Pueblo of Santa Ana, have lived along the banks of the Rio 
Grande and the Rio Jemez. We have endured through the centuries 
by maintaining our traditional, cultural, and spiritual ways, 
which we still adapt to today.
    We are strongly influenced by our connection to the natural 
world and the wildlife resources it provides. The potential 
elimination of traditionally important wildlife on the land 
would directly threaten our ability to engage in important 
religious ceremonies that ensure the persistence of our 
cultural identity now and deep into the future.
    Wildlife habitat connectivity is essential to the 
conservation of wildlife species such as, and I will use my 
language first, [phrase in Native tongue], deer, [phrase in 
Native tongue], elk, [phrase in Native tongue], turkey, [phrase 
in Native tongue], pronghorn. The fragmentation of this land, 
such as by roads, threatens this connectivity. For example, 
Interstate 25 and U.S. 550 are two major roadways that bisect 
the southern half of our lands. These roads are heavily 
traveled, create a barrier for animal migration and pose 
dangerous and often fatal wildlife crossings for animals that 
do not navigate them as well as putting human lives at risk.
    Wildlife corridors are the solution to these problems. 
Santa Ana has moved forward with substantial investment in the 
wildlife corridor that passes through our lands. Specifically, 
we have restored habitat, constructed water drinkers to assure 
adequate water for wildlife, tagged certain animals with radio 
collars to track their movements, and installed news cameras at 
key locations.
    We now enjoy an abundance of [phrase in Native tongue], 
elk, [phrase in Native tongue], mule deer, and have seen the 
return of natural predators, such as [phrase in Native tongue] 
mountain lions. In addition, we have reintroduced a population 
of wild turkeys as well as antelope.
    Finally, we have acquired additional lands to extend the 
wildlife corridor and put in place a wildlife code, which, 
among other things, established hunting seasons for our people.
    Although S. 2891 only applies to tribal lands, we do hope 
to connect our corridor in a continuous fashion to corridors on 
Federal lands, such as the BLM adjacent to our reservation, 
commonly referred to as Buffalo Tract. In our term, that is 
[phrase in Native tongue].
    We would like to note for the record that S. 2891 does not 
restrict private activity or limit private landholders, also, 
our reservation boundaries. In order for the Pueblo of Santa 
Ana to ensure preservation of our cultural identity for current 
and future generations, we must find ways to ensure 
preservation of our cultural identity for current and future 
generations. We must find ways to maintain wildlife 
connectivity to our land both by protecting critical wildlife 
corridors inside and outside of our boundaries, and by finding 
ways to ensure safe passage for wildlife through existing and 
future urban encroachment.
    S. 2891 would represent a significant step in furthering 
this goal.
    Thank you for your time.
    [The prepared statement of Mr. Montoya follows:]

Prepared Statement of Hon. Lawrence Montoya, Governor, Pueblo of Santa 
                                  Ana
Introduction
    Good afternoon Chairman Hoeven, Ranking Member Udall, and Members 
of the Committee. Thank you for the opportunity to submit testimony for 
the record regarding the ``Tribal Wildlife Corridors Act of 2019'' 
(Act) My name is Lawrence Montoya and I serve as the Governor of the 
Pueblo of Santa Ana (Pueblo or Tamaya), a community of approximately 
900 enrolled tribal members, which is located about 10 miles north of 
Albuquerque, New Mexico.
    On behalf of the Pueblo, I would like to share our strong support 
for S. 2891. This bill would provide critically needed authorities to 
establish and support wildlife corridors on tribal lands and enhance 
coordination with Federal land use plans. Wildlife habitat connectivity 
is essential to the conservation of wildlife species such as deer, elk, 
wild turkey, and pronghorn antelope. Yet, ever increasingly, we are 
seeing the fragmentation of New Mexican land due to unsustainable 
development practices, including roadways. For example, Interstate 25 
and US 550 are two major roadways that bisect the southern half of our 
lands. These roads receive heavy daily vehicular traffic loads, create 
a barrier for pronghorn emigration, and pose dangerous, and often 
fatal, wildlife crossings for animals that do navigate them, as well as 
putting human lives at risk. Wildlife corridors are a way to address 
the fragmentation caused by roads and related development which further 
fragments the landscape and degrades the quality of wildlife habitat.
    As I describe below, the Santa Ana Pueblo has invested much time 
and effort already in the protection of wildlife and the maintenance of 
a wildlife corridor between the Jemez and Sandia mountains which passes 
through our lands. Although, S. 2891 only applies to tribal lands, we 
do hope to connect our corridor in a continuous fashion to corridors on 
federal lands, such as the BLM land adjacent to our reservation, 
commonly referred to as the ``Buffalo Tract.'' We would like to note 
for the record that S. 2891 does not restrict private activity or limit 
private landholders outside our reservation boundaries.
Tamaya's Existence is Intrinsically Connected to Our Land, Wildlife, 
        and Natural Resources
    Since time immemorial, the Tamayame, or the people of the Pueblo of 
Santa Ana, have lived along the banks of the Rio Grande and Rio Jemez. 
We have endured through the centuries by maintaining our traditional, 
cultural, and spiritual ways that are strongly influenced by our 
connection to the natural world and the wildlife resources it provides. 
The importance of these resources to the Tamayame cannot be 
understated; the potential elimination of traditionally-important 
wildlife on our land would directly threaten our ability to engage in 
important religious ceremonies that ensure the persistence of our 
cultural identity, now, and deep into the future.
    Historically, we maintained our culture by gathering important 
plant and wildlife resources from a large ancestral homeland that 
extended across approximately 1.8 million acres. However, since 
European establishment in New Mexico in the sixteenth century, the 
Tamayame homeland has been drastically reduced.
    Today, we persist on a relatively small land base, but we maintain 
approximately 98 percent of our lands as undeveloped to try and help 
provide enough open space for wildlife and plants to thrive. However, 
for traditionally- important species such as mule deer, pronghorn, elk, 
black bear, and mountain lion-which require large home ranges to meet 
their annual requirements-our land base remains too small.
Santa Ana's Investment in a Wildlife Corridor
    Santa Ana has already moved forward with substantial investments 
with regard to the wildlife corridor that passes through our lands. 
Specifically, we have restored habitat, constructed water drinkers to 
assure adequate water for wildlife, tagged certain animals with radio 
collars to track their movements and installed and used cameras at key 
locations. We now enjoy an abundance of elk and mule deer and have seen 
the return of natural predators, such as mountain lions. In addition, 
we have reintroduced a population of wild turkeys, as well as antelope. 
Finally, we have acquired additional lands to extend the wildlife 
corridor and have put in place a wildlife code, which among other 
things, establishes hunting seasons for our people.
    As an attachment to this testimony, I have provided a short 
description of Santa Ana's wildlife corridor efforts, especially with 
regard to our desire to see the Buffalo Tract, currently managed by the 
U.S. Bureau of Land Management (BLM), also protected as a wildlife 
corridor. Currently, the BLM parcel is threatened by potential 
development that would ultimately destroy the corridor itself and 
negatively impact wildlife movement throughout this part of New Mexico. 
Protecting these two parcels together in an integrated manner--as could 
be facilitated under S. 2891--would assure the preserved vitality of 
this corridor and protect the vital link between the mountain ranges.
Conclusion--The Pueblo of Santa Ana Strongly Supports S. 2891 and Its 
        Furtherance of Wildlife and Seascape Connectivity on Tribal 
        Lands
    In order for the Pueblo of Santa Ana to ensure the preservation of 
our cultural identity for current and future generations, we must find 
ways today to maintain wildlife connectivity to our land by both 
protecting critical wildlife corridors inside and outside our 
boundaries and by finding ways to ensure safe passage for wildlife 
through existing and future urban encroachment along our boundaries. S. 
2891 would represent a significant step in furthering this goal.
    Therefore, on behalf of the Pueblo of Santa Ana, I am here to say 
that were are encouraged by the benefits the Tribal Wildlife Corridors 
Act of 2019 could have on our culture, and I would like to share the 
Pueblo's strong support of the bill. Thank you.
    Attachment

            THE SANTA ANA PUEBLO WILDLIFE CORRIDOR PROPOSAL
    Since time immemorial, the people of the Santa Ana Pueblo have 
lived along the banks of the Rio Grande and Rio Jemez. In accordance 
with our traditions and beliefs, we seek to preserve and protect an 
existing wildlife corridor connecting the Jemez and Sandia mountains. 
This corridor passes through 14 miles of our land, and another 1.5 
miles of land currently managed by the U.S. Bureau of Land Management 
(BLM ``Parcel A'')--land which we seek to acquire. Adding BLM Parcel A 
to Santa Ana's conservation lands would assure a near-continuous link 
between the federal lands in and around the Sandia Mountains and the 
federal and Indian lands surrounding the Jemez Mountains. However, the 
BLM parcel is now threatened by potential future development, which 
would ultimately destroy the corridor itself and negatively impact 
wildlife movement throughout this part of New Mexico.
    The people of Santa Ana Pueblo (``Tamaya'') place a high value on 
the conservation and responsible stewardship of the Santa Ana Indian 
Reservation's environment and natural resources. In 1996, the Tribal 
Government created the Santa Ana Department of Natural Resources 
(SADNR), whose mission is to develop and implement natural resource 
management programs which protect, preserve and enhance the natural 
living environment for current tribal members and future generations. 
The SADNR also works to develop programs which assess the condition of 
air, water, and land resources and to develop and maintain technical 
expertise within the tribe for managing environmental and natural 
resources. In 2005, the Pueblo adopted a comprehensive Wildlife Code, 
and the Pueblo has also initiated a variety of habitat improvement 
projects to address habitat loss or modification resulting from 
environmental threats. These efforts have achieved successful, 
quantifiable results on our reservation lands. For more information, 
visit www.santaanadnr.org.
    Despite Santa Ana's conservation achievements, efforts within the 
boundaries of our relatively small reservation will not be enough to 
ensure the long-term persistence of wildlife species such as deer, elk, 
wild turkey, and pronghorn antelope that are wide-ranging and require 
large expanses of wildlands to forage, migrate, and breed. Wildlife 
habitat connectivity is essential to the conservation of these species, 
but is in danger of being lost forever on ancestral lands that have 
passed from the Santa Ana Pueblo's control over the centuries and are 
now being transformed from open space to urban development. Therefore, 
the Pueblo is committed to reacquiring and protecting a small piece of 
BLM land that represents a critical piece of the puzzle--BLM Parcel A--
that will help contribute to the Pueblo's wildlife population 
objectives while at the same time preserving land that will benefit not 
only the wildlife that depend on it, but all New Mexicans as well.
    We want to hear from you! Please direct your questions or letters 
of support to: Attn: Governor, Pueblo of Santa Ana, 2 Dove Road, Santa 
Ana Pueblo, NM 87004, or send by email to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4d3cdc8c0c8cdc2c1c7cbd6d6cdc0cbd6e4d7c5cad0c5c5cac589">[email&#160;protected]</a>
nsn.gov.
    The Pueblo's proposal includes the following measures and 
activities on BLM Parcel A:

  <bullet> Vegetation and Watershed Assessment

  <bullet> Rehabilitation of mined lands

  <bullet> Restrictions on future development and mining

  <bullet> Release from livestock grazing

  <bullet> No vehicles permitted except on existing easements

  <bullet> Closure and rehabilitation of non-essential roads

  <bullet> Additional public safety measures

  <bullet> Wildlife water development

    The Pueblo is opposed to the following activities on BLM Parcel A:

  <bullet> Urban development

  <bullet> Any new roads

  <bullet> Sand/Gravel/Precious Metal Mining

  <bullet> Livestock Grazing

    Over-grazing of feral horses that results in the total destruction 
of the natural habitat. The Pueblo advocates the humane relocation of 
the horses to a protected area as the environmentally responsible 
course of action.

    The Chairman. Thank you, Governor Montoya.
    Now, Councilman Auginaush.

STATEMENT OF HON. RAYMOND AUGINAUSH, SR., COUNCIL MEMBER, WHITE 
                          EARTH NATION

    Mr. Auginaush. Good afternoon. Thank you, Chairman Hoeven, 
Vice Chairman Udall, and all the distinguished members of the 
Indian Affairs Committee.
    My name is Raymond Auginaush, District I Representative of 
the White Earth Nation. It is an honor and a privilege to stand 
before you today with testimony on the need for increased 
Federal resources to support tribal energy projects.
    I want to thank Senator Smith for submitting our request to 
testify. She has been a true friend to our Native people in 
Minnesota and throughout this Nation.
    I have made the trip to Washington, D.C. to speak strongly 
in favor of S. 2610, the Tribal Energy Reauthorization Act. 
This legislation is critical to the future of all Native 
people. We believe energy issues will be the basis for future 
economic development on tribal lands. This legislation will 
continue the excellent programs of the past and expand this 
critical area for Native people in the future.
    I, and all members of the White Earth Reservation Business 
Committee appreciate today's scheduled hearing on this 
important matter for all Native people. Much like other 
Minnesota Chippewa Tribe members, White Earth Reservation 
residents have suffered from the effects of energy poverty 
which results from extremely high energy costs in relation to 
minimal household income levels and poor energy efficiency. The 
factors contributing to this include poorly insulated homes, 
expensive fuel oil, propane and electric bills, frequent power 
disconnects, and high shutoff and reconnection fees.
    For the past 16 years, White Earth has worked with the 
Department of Energy to combat the reservation's energy crisis 
as we recognized economic opportunity comes from sustainably 
addressing this situation. The DOE has been supportive of our 
strategic energy planning, including conducting feasibility 
studies and renewable energy deployment for solar, biomass and 
wind projects. Specific DOE projects include wind energy 
deployment, solar energy deployment, a biomass feasibility 
study for our tribal casino, and Tribal Energy Program First 
Steps funding to develop a comprehensive strategic energy plan.
    Without DOE assistance, our limited resources would not 
have allowed the progress White Earth has achieved to this 
date. Energy is an emerging economic opportunity for White 
Earth and its people.
    Presently, the two largest employers on the reservation are 
the tribal casinos and the tribal government offices. When 
renewable energy is deployed, a vast number of new career 
opportunities are created in many different segments, including 
engineering, management, administration, accounting and 
customer service, thus increasing economic diversity for the 
people of White Earth.
    In August 2019, the White Earth Reservation Business 
Committee passed a resolution launching the Renewable Energy 
Independence Initiative directed at taking control of the 
energy economy within the reservation boundaries, as well as 
seeking potential renewable energy investment opportunities 
that advance investment priorities.
    The White Earth RBC is resolved to develop a comprehensive, 
clean energy independence master plan and to set forth a 
strategic vision for the production, distribution, consumption, 
and conservation of energy within the service delivery area of 
White Earth Reservation. The plan being developed will strive 
to stabilize energy costs for White Earth residents, create 
greater control of energy imports, grow community capacity for 
self-generation by solving the community development process, 
and sustain and grow existing energy renewables.
    White Earth is currently focusing on maximizing the 
development of wind and solar energy; however, other energy 
opportunities are emerging. White Earth anticipates pursuing 
additional DOE funding, including utilizing DOE tribal loan 
guarantees for future projects such as solar farms, natural 
gas, hydro energy, and the creation of a tribal utility 
commission and electric utility.
    Presently, an energy utility feasibility study is being 
developed that will guide leadership regarding organization and 
prioritizing projects throughout the decision-making process.
    In closing, I would like to say Miigwech for the 
opportunity to speak on behalf of White Earth. The White Earth 
Reservation Business Committee appreciates being included on 
this important matter and is happy our voice was heard today. 
Miigwech to the members of the Committee for your hard work and 
dedication to improving the lives of all tribal members.
    [The prepared statement of Mr. Auginaush follows:]

  Prepared Statement of Hon. Raymond Auginaush, Sr., Council Member, 
                           White Earth Nation
    Thank you Chairman Hoeven, Vice Chairman Udall and all the 
distinguished Members of the Indian Affairs Committee. My name is 
Raymond Auginaush, District I Representative of White Earth Nation. It 
is an honor and a privilege to stand before you today with testimony on 
the need for increased federal resources to support tribal energy 
projects. I want to thank Senator Smith for submitting our request to 
testify. She has been a true friend to native people in Minnesota and 
throughout this nation
    I have made the trip to Washington, D.C. to speak strongly in favor 
of S. 2610, the Tribal Energy Reauthorization Act. This legislation is 
critical to the future of all native people. We believe energy issues 
will be the basis for future economic development on tribal lands. This 
legislation will continue the excellent programs of the past and expand 
this critical area for native people in the future.
    I, and all members of the White Earth Reservation Business 
Committee, appreciate today's scheduled hearing on this important 
matter for all native people. Much like other Minnesota Chippewa Tribe 
members, White Earth Reservation residents have suffered from the 
effects of energy poverty which results from extremely high energy 
costs in relation to minimal household income levels and poor energy 
efficiency. The factors contributing to this include poorly insulated 
homes, expensive fuel oil, propane and electric bills, frequent power 
disconnects, and high shut off and reconnection fees.
    For the past 16 years, White Earth has worked with the Department 
of Energy to combat the reservation's energy crisis as we recognized 
economic opportunity comes from sustainably addressing this situation. 
The DOE has been supportive of our strategic energy planning, including 
conducting feasibility studies and renewable energy deployment for 
solar, biomass and wind projects. Specific DOE projects include:

  <bullet> wind energy deployment in the form of one 750 kW and two 50 
        kW wind turbines,

  <bullet> solar energy deployment ranging in size from 1.8 kW to 40 kW 
        in 3 community facilities

  <bullet> a biomass feasibility study for our tribal casino,

  <bullet> and Tribal Energy Program First Steps funding to develop a 
        comprehensive strategic energy plan.

    Without DOE assistance, our limited resources would not have 
allowed the progress White Earth has achieved to this date.
    Energy is an emerging economic opportunity for White Earth and its 
people. Presently, the two largest employers on the reservation are the 
tribal casinos and the tribal government offices. When renewable energy 
is deployed, a vast number of new career opportunities are created in 
many different segments including engineering, management, 
administration, accounting and customer service; thus, increasing 
economic diversity for the people of White Earth.
    In August 2019, the White Earth Reservation Business Committee 
passed a resolution launching the Renewable Energy Independence 
Initiative directed at taking control of the energy economy within the 
reservation boundaries, as well as seeking potential renewable energy 
investment opportunities that advance investment priorities.
    The White Earth RBC is resolved to develop a comprehensive, clean 
energy independence master plan and to set forth a strategic vision for 
the production, distribution, consumption, and conservation of energy 
within the service delivery area of White Earth Reservation. The plan 
being developed will strive to:

  <bullet> stabilize energy costs for White Earth residents,

  <bullet> create greater control of energy imports,

  <bullet> grow community capacity for self-generation by solving the 
        community development process

  <bullet> sustain and grow existing energy renewables.

    White Earth is currently focusing on maximizing the development of 
wind and solar energy; however, other energy opportunities are 
emerging. White Earth anticipates pursuing additional DOE funding, 
including utilizing DOE tribal loan guarantees for future projects such 
as:

  <bullet> Solar farms--White Earth is presently vetting developers 
        with successful experience in developing 1 MW solar farms in 
        Minnesota. Potential solar projects have been identified and 
        include powering the tribal casino, constructing solar farms 
        along existing power grids within the reservation boundaries 
        and investing in off-reservation facilities throughout the 
        state.

  <bullet> Natural gas--White Earth has previously collaborated with 
        multiple partners to bring natural gas to the city of Mahnomen 
        and, more specifically, the tribal casino. This effort has made 
        a substantial difference to the energy costs of the casino, 
        which is one of the largest energy consumers on the 
        reservation. Plans are currently being developed to bring 
        natural gas to other reservation communities with the goal of 
        considerable cost savings to individual households and other 
        tribal facilities.

  <bullet> Hydro energy--Opportunities are being explored that would 
        allow White Earth to exert its sovereignty and delve into 
        clean, renewable and cost competitive hydro energy.

  <bullet> The creation of a tribal utility commission and electric 
        utility--White Earth is committed to creating a tribal electric 
        and natural gas utility commission. The efforts of the tribal 
        utility commission would likely include acquisition of major 
        components of the existing electrical distribution system and 
        rebuilding as necessary for the needs of the community as it 
        transitions to locally generated power and renewables.

    Presently, an energy utility feasibility study is being developed 
that will guide leadership regarding organization and prioritizing 
projects throughout the decisionmaking process.
    In closing, I would like to say Miigwech for the opportunity to 
speak on behalf of the people of White Earth. The White Earth 
Reservation Business Committee appreciates being included on this 
important matter and is happy our voice was heard today. Miigwech to 
the members of the Committee for your hard work and dedication to 
improving the lives of all tribal members.

    The Chairman. Thank you, Councilman.
    At this point, we will turn to questions. I will begin with 
Mr. Frost.
    S. 2610 intends to provide electricity to Native American 
homes that are located on Indian lands. Your testimony 
indicated that your office has concerns with the removal of the 
cost sharing requirement. However, you also indicated that the 
Secretary of Energy has the authority to reduce cost share when 
necessary.
    How often has the Secretary intervened on behalf of 
economically disadvantaged tribes to remove the cost sharing?
    Mr. Frost. Thank you for the question, Senator.
    To the best of my knowledge, in 2015, the was a cost share 
reduction for the Washoe Tribe. In 2013, the Office assessed 
cost share on a case by case basis. There were six requests, 
and I believe, to the best of my recollection, four or five of 
those were granted in the past.
    But again, that is a request that has to come from the 
tribes. And that is also elucidated within our funding 
opportunity announcements, to alert tribes of that option as 
well.
    The Chairman. Thank you.
    Mr. Guertin, the term corridor in S. 2891 is defined as ``a 
distinct component of a landscape or seascape that a, provides 
habitat or ecological connectivity, and b, allows for fish, 
wildlife or plant movement.'' Does the U.S. Fish and Wildlife 
Service envision a circumstance in which it may approve the 
establishment of a tribal wildlife corridor solely for plant 
movement?
    Mr. Guertin. Thank you, Senator. We anticipate there may be 
some interest on behalf of some of the tribes to prioritize 
such a corridor. We believe, based on past experience, the 
preponderance of any type of designation or proposal will 
probably more likely be centered on either animals or fishery 
species, birds and things like that. That is just looking back 
at similar programs we fund through our Tribal and State 
Wildlife Grants Program and other technical assistance that is 
provided.
    Past experience would show it would probably be more 
focused on fisheries and wildlife resources.
    The Chairman. Describe a plant corridor.
    Mr. Guertin. Plants, when people talk about migration, a 
model of deer walking across a landscape doesn't apply. Plants 
disperse themselves through the distribution of seeds. Insects 
pick it up, the wind carries them, a watershed may float it. 
Scat carries a lot of seeds across the landscape.
    The rate of growth for a plant to expand is measured 
probably in meters or yards, rather than a herd of elk or big 
game moving across hundreds of miles. So it is a different kind 
of biological phenomenon, but a colonization can take place 
over greater ranges in some occurrences as well.
    The Chairman. Do you do something to create that corridor 
for plant movement?
    Mr. Guertin. Would we actively do something, Senator?
    The Chairman. Yes.
    Mr. Guertin. There are ways to plant vegetation. An example 
may be after a wildland fire, coming through, trying to 
reestablish native vegetation and things like that.
    The Chairman. How does the U.S. Fish and Wildlife Service 
believe the bill will affect private landowners adjacent to 
Indian lands as it relates to the use and enjoyment of their 
properties?
    Mr. Guertin. Our read of the bill, Senator, is that it 
would not impact any use of private landowners. This is 
written, from our read, as a vision for voluntary, non-
regulatory efforts within land managed and owned by our tribal 
partners. It would be up to any surrounding landowners if they 
wanted to partner up with the tribes to make that connection. 
But the bill, from our read, does not put any nexus onto 
private landowners.
    The Chairman. You don't anticipate that it would have 
negative impacts on surrounding landowners?
    Mr. Guertin. Not to our read, no, sir.
    The Chairman. That is something that would be managed 
according to avoid something like that.
    Mr. Guertin. Yes. The vision is to develop a partnership 
with a shared vision on these landscapes. It is in the 
leadership wheelhouse for the tribes to make that determination 
their land. If their surrounding neighbors want to partner up 
with them, that is up to the decisions of individual 
landowners.
    The Chairman. All right. Thank you.
    Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Your description reminds me, Mr. Guertin, of what a 
climatologist told me, this is with regard to plants. We were 
in an area on a river trip. He said, if you have a certain pine 
tree in the area that grows at a certain temperature, and we 
have, as we know, global warming and climate activity, the 
trees then move up the hill, as you were saying, at a very low 
rate.
    The problem for the tree in extinction is that when the 
tree reaches the top of the mountain and the heat is all the 
way there, then the tree disappears. So I think you gave a 
pretty good example there. Trees don't move very quickly, but 
it can happen that they try to migrate for climate or other 
reasons.
    Governor Montoya, we agree there is a need to increase the 
capacity of tribal communities to coordinate wildlife 
management strategies across entire landscapes, and to 
establish a framework to enhance the use of wildlife corridors. 
But I want to focus on the public health and safety advantages 
of wildlife corridors. For example, the New Mexico Department 
of Transportation reported 15,213 animal-vehicle collisions 
between 2001 and 2016.
    Can you talk about the benefits of wildlife corridors from 
a public health and safety perspective, and the perspective of 
your Pueblo, also?
    Mr. Montoya. Thank you, Senator. Yes, an example would be 
the interstate that crosses through our reservation, which is 
probably about two miles long. But the wildlife coming off the 
Sandia Mountains from the east to the west, it is pretty 
dangerous. We have a uniformed police department and so on the 
reservation, again, the wildlife is really important for our 
religion. So if a bear gets hit, an owl gets hit, or a mountain 
lion gets hit, we are first informed as to knowing. Because on 
the reservation land, we take them and we use them for 
ceremonial purposes.
    But to the question regarding the safety, we have been 
talking to the department of transportation. There are 
corridors within the United States that have been built to 
actually help the wildlife go through those corridors alive, 
and to have that impact on human lives and dangerous crossings. 
Most of the accidents that do happen are, our data is because 
they are nocturnal, they are in early morning or after midnight 
or early morning hours. People traveling at night, visibility 
is limited.
    So there is again, we have seen it, the impacts are really 
significant. I think it is going to take a collaboration of 
this bill and having to deal with other entities, public 
landowners and the highway department to make things work. We 
are only a small component to try and establish that goal. But 
there is a significant impact.
    Senator Udall. Thank you, Governor.
    Mr. Guertin, the rationale for Secretarial Order 3362 
recognizing the adverse impact of population growth in the west 
on fish and wildlife habitat aligns with the need to increase 
the use of wildlife corridors for the benefit of all species. 
It seems like there is a real opportunity for us to work 
together, not only to benefit big game hunters and States, but 
to benefit all species and interested Indian tribes.
    Does the Fish and Wildlife Service support broadening the 
use of wildlife corridors beyond the beneficiaries mentioned in 
the Secretarial Order, whether through more direct engagement 
with tribe to establish wildlife corridors on tribal lands, or 
to expand the application beyond big game species?
    Mr. Guertin. Yes, Senator, we are very interested in 
working with the Committee as you frame up the final language 
for the bill. The Secretary's order focused on those three 
iconic big game species, and our initial efforts focused, with 
our State partners, on those. Tribes were certainly part of the 
mix as we moved forward to implement that.
    But the Secretary's Order really builds on our larger 
ongoing work, where we are working with the North American 
Waterfowl Management Plan, where we are essentially managing 
several concurrent corridors for migratory birds and neotrops. 
Our ongoing partnership work with Monarch butterflies and these 
big corridors, our work with interjurisdictional fisheries, 
that fish passage and opening up habitat for spawning and 
rearing. So it is building on that.
    The Service's interest is to work with the Committee as you 
step down into the operational details of making this go live, 
as it comes online, sir.
    Senator Udall. Thank you.
    Governor Montoya, can you elaborate on the importance of 
wildlife to the Pueblo from a religious and cultural 
perspective, and discuss how 2981 could build upon the progress 
that has been made with existing wildlife corridors?
    Mr. Montoya. Thank you, Senator. I will say it is really, 
really relevant in terms of the culture that we know. In the 
new millennium, we have not changed. The one thing that has 
changed is that we had ancestors coming from back here forward. 
So we sit here as a testimony of keeping that tradition going.
    So I guess to your question, because of the bureaucracy and 
the process, for instance, when we work with the State on the 
antelopes and the turkey, sometimes there is a difficulty. 
Because there is a limited amount that has to be distributed. 
But we have had a pretty good relationship with them.
    Again, those are things that we couldn't do ourselves. It 
has to be a collaboration with agencies. We really appreciate 
that the State game and fish in New Mexico has worked with us 
diligently on doing that.
    The other way that it will work, going back to our earlier 
discussion on corridors, wildlife really don't know boundaries. 
They will follow a true hot spot to get from point A to point 
B. That is a reflection of your concern right now, the 
encroachment of homes, roads. They are not going to change 
their mind in terms of where they are going to go, and that is 
the reason why we have fatalities with those large animals.
    Just to reiterate, our data shows that we do collar a lot 
of the big game, mountain lion, bear, antelope, deer. So 
basically, as of today, we can tell where the animals are 
going. All those hot spots that show up on the radio collars 
indicate that nothing has changed. This is just probably going 
to get worse because of community growth.
    So again, it is really important for us that we try to save 
whatever species are going to be available in those corridors.
    Senator Udall. Thank you, Governor Montoya. Thank you, Mr. 
Chairman.
    The Chairman. Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you so much, Chair Hoeven and Vice 
Chair Udall for my birthday greetings, and also for holding 
this hearing today, including on S. 2610, the Tribal Energy 
Reauthorization Act.
    The Chairman. You get extra time.
    [Laughter.]
    Senator Smith. Thank you.
    I am really so delighted to be able to work on this bill 
with Senator Murkowski. I am also just so happy to see 
Councilmember Auginaush here with us today from the White Earth 
Nation. I am so grateful for your leadership and the leadership 
of the White Earth Nation on energy and your work to move 
toward energy independence.
    So today we are considering this bill, the Tribal Energy 
Reauthorization Act, which as I said, Senator Murkowski and I 
are working on together. This bill would reauthorize and 
improve the Department of Energy's Office of Indian Energy, as 
well as the Tribal Energy Loan Guarantee Program. These 
programs would be reauthorized with increased authorized 
appropriations through 2030.
    I also would like to just note, apropos of Mr. Frost's 
comments, that this bill would not eliminate cost sharing. We 
would be happy to continue to work with you and to continue the 
conversation on that aspect of the bill as well.
    Councilmember Auginaush, you and I have had a chance to 
talk a lot about how important this project is to White Earth 
Nation. It really grows out of this understanding that we all 
share that clean energy is not only good for the environment, 
but it is good for the economy and good for the economic 
opportunities that are present on White Earth, as would be the 
case on tribal nations everywhere.
    As you said in your testimony, these energy projects have 
the opportunity to be a great foundation for economic 
development for the tribe. So I am wondering if you could just 
say a little bit more about how White Earth has benefited from 
the work that you have already done to develop clean energy and 
what this means to the Tribe in terms of economic development 
and workforce development, and also what it means to the 
region.
    Mr. Auginaush. Yes, thank you, Senator Smith. In the two 
years I have been on this council, we have been very actively 
working with our tribal energy. We have set up solar panels on 
our buildings. We are also looking into wind energy and 
different other things that we are moving right along with.
    Mainly our solar panels have really made a significant 
difference on our tribal buildings. We hope to set them up 
where we could set them up with our housing to help our people 
in our housing bills. But not only for our people, but we are 
also looking at all people on the reservation which are non-
Natives, who are also struggling with the same problems we 
have, as far as high energy bills and fuel bills.
    So we are not only looking out for ourselves, we are also 
looking out for people who live on the reservation who are 
within our boundaries to help them out also. But we are, as was 
said, money is short, but we are always looking out, and I very 
much appreciate this bill that is being pushed through here, or 
I shouldn't say pushed through, but being brought through.
    Senator Smith. You can say pushed through.
    Mr. Auginaush. If it were up to me, I would push it 
through.
    [Laughter.]
    Mr. Auginaush. But that is beside the point. Anyway, this 
is an excellent opportunity for us to grow, and we are looking 
at bringing in companies onto the reservation. We can give them 
tax breaks; we can give them this and that. At the same time, 
we are looking at gaining more for our people for job 
opportunities. Right now, our biggest opportunities are at 
casinos, and some people, that just doesn't fit them. They work 
there so long, then they are done.
    So we are looking at different job opportunities into this 
energy deal. We can bring in a lot of jobs here that will 
actually help a lot of our people. But again, not only our 
people, non-Native people.
    Senator Smith. Certainly it benefits White Earth Nation, 
but it also benefits the broader region as well, because of the 
economic activity.
    Mr. Auginaush. Exactly. It would certainly benefit the 
White Earth Nation, but as we say, we like to share. So we are 
looking at our counterparts who live within our reservations to 
include them in with us. We are not doing this just for the 
sole purpose of White Earth Reservation. We are doing it for 
also those who live on the reservation, so we can help them out 
also.
    Senator Smith. Thank you very much. Again, thank you for 
making the long trip from White Earth Nation.
    Mr. Auginaush. You are welcome. Again, I appreciate you 
very much for helping us out there, and I appreciate you for 
having us here today. I hope you have safe travels in your next 
travels home. Especially you, Mr. Hoeven, I know you live in 
that cold country where we live.
    [Laughter.]
    The Chairman. Thank you.
    Mr. Auginaush. Miigwech.
    The Chairman. Thank you, Councilman, we appreciate it very 
much. Thank you for being here.
    Senator Smith. Miigwech. Thank you.
    The Chairman. Thanks, Senator. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Senator Hoeven and Ranking 
Member.
    I am pleased that we have this bill in front of the 
Committee today. I thank Senator Smith for her leadership, her 
teamwork on this. I think we recognize that there is great 
potential here.
    I think it is somewhat timely that as we are on the Floor 
right now with an updated Energy Bill, we recognize that this 
Office, OIE, was established by the Energy Policy Act of 2005. 
So we are now a dozen plus years beyond that and I think we 
recognize that the good work of the Office of Indian Energy can 
be tweaked or encouraged. I think that is what our legislation 
really does seek to do, and kind of leveling that playing field 
for project grants, regardless of tribal landownership 
structure, allowing non-profit electric co-ops that serve our 
tribal communities to apply for OIE funding.
    Recognizing that OIE should take into consideration the 
fiscal ability of a grant applicant to meet the cost share 
requirements, we have had discussion about that. I know that 
that is very important.
    Also, what more can be done to utilize OIE as really this 
clearinghouse. I think we recognize that for some of our tribal 
entities, DOE is pretty imposing, it is pretty intimidating, 
and it is a tough thing to navigate. So to really allow OIE to 
help facilitate that I think is an important part of what we 
are trying to do within this legislation.
    I will ask you, Director Frost, on that. But before we get 
into the details of that specifically, I wanted to ask about 
the staffing within the Alaska office. I believe that there are 
two positions that you have recently noticed as open for the 
Alaska office. Can you give me an update on where we might be 
with filling those two positions, and the timeline for bringing 
folks on board?
    Mr. Frost. Thank you for the question, Senator Murkowski.
    In terms of an update, the Office of Indian Energy is 
actively working on recruitment. We expect to have a 
replacement for the general engineer in Alaska by the end of 
April.
    We are currently reviewing candidates for the new senior 
advisor position in Alaska. Both of those have also closed as 
well.
    Senator Murkowski. They have closed.
    Mr. Frost. Yes, they have closed.
    Senator Murkowski. Okay, so we would at that time period, I 
know it has been a frustrating process for you in terms of the 
timelines. It is certainly a frustrating process for those who 
are waiting to have the expertise that these individuals will 
provide. I am glad that we have at least gotten through that 
part, and hopefully we are going to have good folk accept these 
positions.
    I wanted to speak to this aspect of information 
clearinghouse. The language in the bill is intended to have 
your office serve as a liaison with the rest of the Department 
of Energy, so that if, for instance, you have a funding 
opportunity that comes up through EERE, that might be 
appropriate for one of the tribes, you have been brought up to 
date in terms of what the needs of the tribes are.
    The design of all this is that your office then can act as 
the liaison for the tribe to that other office within DOE. This 
is not unlike what the Office of Technology Transitions does 
between the private sector and the national labs. They 
basically help to facilitate these opportunities.
    So do you think that this is something that your office can 
explore to serve as an information and support clearinghouse 
for tribal entities all across the department?
    Mr. Frost. Senator, earlier in my oral testimony I did 
provide and state that the entirety of OIE staff kind of 
already performs that function. We gather not only tribal 
opportunities as well, in terms of funding opportunities, but 
also within DOE and across the entire Federal family. We house 
all that information on our website.
    So we are already presently doing that. We will continue to 
do that in the future, because not only is it a best practice, 
but we want to make sure that in terms of the non-DOE Federal 
cost share that tribes avail themselves to a lot of other 
opportunities which may help them stand up their energy 
development projects.
    Senator Murkowski. We want to help facilitate that, so that 
this is truly operational. I know that there have been some 
opportunities that have been limited by narrow application of 
OIE's authorities in Alaska under existing law. So I would like 
to think that if we are able to identify where those choke 
points are that we can work to address them so that the 
opportunities that this office presents can be fully made 
available.
    I know that we have had conversations together where I have 
expressed my frustration. I think part of it is you have small, 
oftentimes unsophisticated tribal entities that are trying to 
navigate something that is just so foreign to them. We send 
them to you, and it has been another level of bureaucracy.
    So all that we can do to better integrate and better act as 
that liaison, I think this is ultimately what we are all trying 
to do. Same goal: we just have to make sure that we are all 
working together to make that happen.
    Mr. Frost. Senator, the Office definitely looks forward to 
continuing a conversation with you as well, so that we can find 
that common ground and work in the best interests of Indian 
Country and Alaska Native villages. We welcome that 
conversation.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Chairman Hoeven and 
Ranking Member Udall. Thank you to the panelists for being here 
today.
    Mr. Frost, I would like to start with you. In Nevada, we 
have the Desert Research Institute. DRI has joined the 
University of Arizona in partnering with the Hopi community 
leaders to help alleviate the energy insecurity that has 
resulted within the Hopi community after that Kayenta coal mine 
in Navajo Generating Station closed in 2019, which restricts 
the Hopi Tribe's access to its primary energy resource.
    Together, the University of Arizona, DRI and the Hopi 
community leaders are working to deploy community-based energy 
security solutions which include affordable household level 
off-grid residential systems. It is the hope of this 
partnership that these renewable energy solutions will provide 
energy security to the community.
    So my question to you is, is the Office of Indian Energy 
aware of the urgent need to help these Hopi families as they 
transition off the grid to sustainable energy solutions? What 
is the Office of Indian Energy and other Federal agencies doing 
to ensure energy security solutions for the Hopi communities 
are community-based, incorporate community workforce training 
and are respectful of the Hopi culture and traditions?
    Mr. Frost. Thank you for the question, Senator.
    While I can't speak on behalf of the other members of the 
Federal family, but I can speak on what we do within the Office 
of Indian Energy, as well as utilizing and leveraging a lot of 
the resources as well within the department in general.
    One thing we have been doing, yes, I am aware of the issue 
that the Hopi are dealing with as well as that collaboration 
with the University of Arizona. I did have some discussions on 
that this morning. The one thing that the office can do, we are 
kind of what is known as an opt-in office. Tribes kind of have 
to step through our door as well, even though we have some 
understanding of what is going on within Indian Country.
    Senator Cortez Masto. So in other words, just so I 
understand this, you may have knowledge of something that is 
happening within the community, but until they ask you, don't 
take any action, is that right?
    Mr. Frost. Yes. Let me rephrase. Yes, we do that, but we 
also adhere to the tenets of tribal sovereignty and self-
determination in our office.
    Senator Cortez Masto. Okay.
    Mr. Frost. With our office, if that is the tribe's goal, we 
always make ourselves available at any and all times to have 
discussions with any one of the 574 federally recognized 
tribes. Up until that point, the Hopi Tribe has not come 
directly to our office.
    Senator Cortez Masto. Okay. No one within this partnership 
has come to your office to seek assistance on behalf of the 
tribe, the Hopi Tribe.
    Mr. Frost. The only one that we have had come through here 
was the University of Arizona. We did respond to them today, 
just for your edification as well.
    Senator Cortez Masto. Okay, thank you.
    Mr. Frost. But what we also have the ability to do, as I 
know Hopi, a lot of their economic base is well-nestled within 
coal. So we also partner with what we call our Fossil Energy 
Office within the department. We also work to utilize not only 
their budget but their expertise in terms of subject matter 
experts, and their staff as well, to kind of look at a lot of 
these wide-ranging issues in general, issues that affect, at 
least I should say that go beyond the borders of the Hopi 
Reservation as well.
    But we can also harness technical assistance, and the tribe 
itself can also make that request to us, through our technical 
assistance page, on our web page, which we always respond to 
tribes. But in the event that we are unable to fill that need 
by having strong partnerships and collaboration across the 
entire Federal family, we can get them in front of the right 
office.
    For example, if they were looking for something in the 
realm of a feasibility study, if the Fossil Energy Office isn't 
able to accommodate, then we could also utilize the Division of 
Energy Mineral Development within BIA, as well, or even the 
Indian Energy and Economic Development Office as well. These 
are some of our strong partners we have had in the past. Since 
I have become the director, we have solidified those 
relationships. Right now, we have a great working relationship 
with those offices.
    So any time we hear some of these issues, they will 
collaborate with us and they will kind of give us some heads up 
and situational awareness. Then we will continue those 
discussions.
    But as always, when it comes to some of the cultural 
relevancy for the tribe as well, as an example, the tribe was 
going to look to use some technical assistance, or if they were 
actually going to look to stand up an energy project through 
one of our funding opportunities, the tribe has the ability to 
site that project where they wish to site the project. That is 
taken into account all the tribe's cultural, historical and 
traditional knowledge and references as well.
    We don't impose anything on the tribes as an office. We 
allow the tribes to tell us where they want the project, what 
type of technology they wish to use. By maintaining and keeping 
the Office of Fuel and Technology neutral, that gives the 
office the ability, one, to allow its entire suite of services 
to be available for all 574 federally recognized tribes. We 
honor every tribe's individual energy development goals and 
utilize our small staff and our limited amount of resources to 
the best of our ability to efficiently and effectively help 
them overcome any obstacles.
    Senator Cortez Masto. So do you engage in workforce 
training as well?
    Mr. Frost. At this time, we do not engage in any workforce 
training.
    Senator Cortez Masto. Okay. So let me ask you then, because 
I think I heard in your statement with respect to S. 2610 that 
you didn't think there was a need for the liaison for the 
tribes. If you could, explain this to me. That is work that you 
are already engaging in, the staff is.
    Mr. Frost. Yes.
    Senator Cortez Masto. So you didn't need an additional 
person to do that work?
    Mr. Frost. No. Our staff already handles that in terms of 
looking at all the different funding opportunities, whether we 
are going out to a specific tribal event, whether that is a 
ribbon cutting for a project, or whether we are looking more on 
a regional event or working on some of the other inter-tribal 
organizations around the Country. We go out and also bring that 
message with us about what we are doing in the office, some of 
those funding opportunities as well.
    As an example, quite recently, we have had a team member 
from our Golden field office go to Seminole's renewable energy 
conference in Florida. There, they talked about a brief 
overview of the office, talked about some of the funding 
opportunities that are available, and actually answered 
questions in real time, some of the Q&A from the audience 
members as well.
    We also do that on a national basis, because the office 
articulated within the language for the office, we do have a 
biannual national tribal energy summit. So during that time 
every two years, we do get a lot of these funding opportunity 
announcements available, and we also pull together a lot of the 
Federal family that works collaboratively with Indian Country 
when it comes to energy development.
    Senator Cortez Masto. Okay. Thank you very much.
    The Chairman. Thank you to all the witnesses. The hearing 
record will be open for two weeks. Again, we appreciate your 
being here, and your testimony.
    With that, our hearing is adjourned. Thanks so much.
    [Whereupon, at 3:33 p.m., the hearing was adjourned.]

                            A P P E N D I X

Prepared Statement of Hon. Victor Joseph, Chief/Chairman, Tanana Chiefs 
                               Conference
    Chairman Hoeven, Vice Chairman Udall, and members of the Senate 
Committee on Indian Affairs (``Committee''), I am submitting this 
testimony on behalf of the Tanana Chiefs Conference (TCC) for the 
record of the Committee's March 4, 2020 Legislative Hearing on S. 2610, 
the Tribal Energy Reauthorization Act. TCC supports S. 2610 with an 
amendment to ensure that Alaska Native Villages can take full advantage 
of the opportunities provided by the Energy Policy Act.
    The Tanana Chiefs Conference is a non-profit intertribal consortium 
of 37 federally recognized Tribes and 41 communities located across 
Alaska's vast interior. Headquartered in Fairbanks, AK, TCC serves 
approximately 18,000 tribal members in Fairbanks, and in the rural 
villages. TCC aims to meet the health and social service needs of 
tribes and tribal members throughout the region, which is nearly the 
size of Texas.
    TCC would like to thank Senator Lisa Murkowski, Senator Dan 
Sullivan, and Senator Tina Smith for introducing S. 2610, which would 
amend the Energy Policy Act. We appreciate the bill's attempt to ensure 
that Alaska Native Villages can take full advantage of the grant 
opportunities provided by the Department of Energy's Office of Indian 
Energy Policy and Programs (``OIE''). While TCC shares this goal, the 
bill may still not allow Alaska Native Villages to fully benefit from 
those opportunities. In addition, the bill would not clarify that 
Alaska Native Villages are eligible to access certain tribal energy 
programs at the Interior Department.
    The Energy Policy Act of 2005 (Public Law 109-58) (``Act'') created 
opportunities at both the Department of Energy and the Department of 
the Interior to help support the development and use of tribal energy 
resources. Section 502 of the Act created the Office of Indian Energy 
Policy and Programs (OIE) within the Department of Energy (42 USC 
7144e). Further, Section 503 of the Act, codified at 25 USC 3502(b), 
states that the OIE Director ``shall establish programs to assist 
consenting Indian tribes in meeting energy education, research and 
development, planning, and management needs.'' Section 503 also states 
that the OIE Director may provide certain grants to an Indian tribe or 
tribal energy resource development organization.
    Furthermore, Section 503 of the Act, codified at 25 USC 3502(a), 
provides that the Interior Secretary ``shall establish and implement an 
Indian energy resource development program'' designed to assist Indian 
tribes and tribal energy resource development organizations. In 
addition, the Section states that the Interior Secretary shall provide 
certain grant opportunities to Indian tribes and tribal energy resource 
development organizations, including grants related to developing or 
obtaining the managerial and technical capacity to develop energy 
resources; and carrying out projects to promote the integration of 
energy resources.
    The tribal programs authorized under the Act at both the Energy 
Department and the Interior Department promote tribal self-
determination and grant Indian tribes greater authority over energy 
resources. Unfortunately, the Act's conflicting definitions of ``Indian 
land'' and ``Indian tribe'' compromises the ability of Alaska Native 
Villages to take full advantage of those opportunities. While the Act's 
definition of ``Indian tribe'' (25 USC 5304) is inclusive of Alaska 
Native Villages, it does not take into account the fact that Alaska 
Native Villages largely do not hold ``Indian land'' (25 USC 5301(2)) as 
defined by the Act. \1\
---------------------------------------------------------------------------
    \1\ The Act defines ``Indian land'' as: ``(A) any land located 
within the boundaries of an Indian reservation, pueblo, or rancheria; 
(B) any land located within the boundaries of an Indian reservation, 
pueblo, or rancheria, the title to which is held--(i) in trust by the 
United States for the benefit of an Indian tribe or an individual 
Indian; (ii) by an Indian tribe or an individual Indian, subject to a 
restriction against alienation under laws of the United States; or 
(iii) by a dependent Indian community; and (C) land that is owned by an 
Indian tribe and was conveyed by the United States to a Native 
Corporation pursuant to the Alaska Native Claims Settlement Act (43 USC 
1601 et seq), or that was conveyed by the United States to a Native 
Corporation in exchange for such land.''
---------------------------------------------------------------------------
    The Alaska Native Claims Settlement Act (ANCSA) vested land 
ownership in Alaska's forprofit, regional and village corporations, 
rather than the tribes. As a result, Alaska tribes own essentially none 
of the 44 million acres of land transferred to Native entities under 
ANCSA. Unfortunately for Alaska Native Villages, the Interior and 
Energy Department tribal programs authorized under the Act are 
primarily tied to ``Indian land.''
    The Tanana Chiefs Conference appreciates the fact that some Alaska 
Native Villages have had the opportunity to utilize the tribal programs 
authorized under the Energy Policy Act. However, we are aware of others 
being denied participation due to the fact that they do not hold 
``Indian land.'' In order to provide clarity and certainty, TCC 
recommends amending the definition of ``Indian land.''
    TCC supports S. 2610's attempt to address the ``Indian land'' 
situation for the Alaska Native Villages. The bill would amend current 
law to include the definition of ``Native,'' as defined in the Alaska 
Native Claims Settlement Act. Further, the bill would delete the term 
``Indian land'' from multiple provisions of current law, which outline 
the types of grants which the OIE Director may provide.
    While this effort is greatly appreciated, TCC is concerned about 
the complexities stemming from the bill's usage of the definition of 
``Native,'' as defined by ANCSA, which requires \1/4\ blood quantum. In 
addition, the bill would not resolve the ``Indian land'' issue for 
Alaska Native Villages when it comes to fully participating in the 
Interior Department's tribal programs authorized by the Energy Policy 
Act.
    In order to address these concerns, TCC recommends a slightly 
different approach through the following amendment to S. 2610, the 
Tribal Energy Reauthorization Act:
    Sec.----. TECHNICAL AMENDMENT. Amend Section 2(a) of S. 2610 by 
adding a new paragraph at the end:

        (6) in paragraph (2)(C) by adding the following before the 
        period:

        ``, or that is located in an Alaska Native Village Statistical 
        Area as determined by the Bureau of the Census.''

    TCC believes that this straightforward amendment would ensure that 
Alaska Native Villages can take full advantage of the valuable 
opportunities afforded by the Energy Policy Act. In closing, the Tanana 
Chiefs Conference once again thanks Senators Murkowski, Sullivan, and 
Smith for introducing S. 2610, the Tribal Energy Reauthorization Act. 
We also applaud the Senate Committee on Indian Affairs for holding a 
hearing on the bill and allowing us the opportunity to submit testimony 
on the bill. TCC urges the Committee to support our proposed amendment 
to S. 2610 and approve the bill.
                                 ______
                                 
                                     The Wilderness Society
                                                      March 3, 2020
Hon. John Hoeven, Chairman;
Hon. Tom Udall, Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.

Dear Chairman Hoeven and Vice Chairman Udall and Members of the 
Committee:

    On behalf of our more than one million members and supporters, The 
Wilderness Society (TWS) writes to express our support for S. 2891, the 
Tribal Wildlife Corridors Act of 2019, being heard before the Senate 
Committee on Indian Affairs on March 4, 2020. We respectfully request 
that this letter be included in the hearing record.
S. 2891, Tribal Wildlife Corridors Act of 2019
    TWS supports S. 2891, the Tribal Wildlife Corridors Act of 2019, 
sponsored by Senator Udall. Ecological connectivity of wildlife 
habitats is necessary for the survival and success of many species 
across the country. S. 2891 would establish a process for tribal 
governments to protect wildlife corridors on tribal land to facilitate 
the movement of native species. Through this bill, the Department of 
the Interior would provide assistance in establishing, managing and 
expanding Tribal Wildlife Corridors to improve wildlife habitat and 
connectivity on tribal land and for these corridors to be officially 
designated by the Secretary of the Interior. S. 2891 would also create 
the Wildlife Movements Grant Program to provide funding to tribes in 
establishing corridors. Indigenous communities have often led the way 
in environmental stewardship, and this bill would allow those 
communities to have the necessary resources to create and maintain 
wildlife corridors. Given this, TWS urges all Members of the Committee 
to support S. 2891.
    Thank you for considering our views.
        Sincerely,
                                           Drew McConville,
                     Senior Managing Director, Government Relations
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Kevin R. Frost
    Question 1. A review of recent grant awards awarded by your office 
shows that awards primarily go to renewable energy projects such as 
biomass, energy efficiency, solar, and wind power projects. Section 
2(b) of S. 2610 incorporates additional criteria from the Department of 
Energy Organization Act, including criteria to ``reduce or stabilize 
energy costs.'' Under existing authority, could DOE award a grant to 
support the installation of diesel fuel generators? Does Section 2(b) 
change that eligibility in anyway?
    Answer. Funding Opportunity Announcements (FOAs) issued by the 
Office of Indian Energy since 2018 have been fuel and technology 
neutral and have explicitly sought energy generating systems which, for 
purposes of the FOAs, include: (1) combined heat and power system(s), 
(2) conventional distributed generation system(s) and (3) renewable 
energy system(s). As defined in the FOA, conventional distributed 
generation system(s) include, but are not limited to: gas turbines 
(combustion engine), generators, reciprocating engines, stirling 
engines, microturbines, or combustion steam turbines. Therefore, the 
installation of diesel fuel generators are eligible under the current 
and recent FOAs. Based on the language of Section 2(b) of S. 2610, that 
eligibility would not change in anyway.

    Question 2. Section 2 of the S. 2610 modifies the definition of 
``tribal energy development organization'' to include Alaska Native 
Corporations. That phrase is also used in 25 U.S.C. 3504, which deals 
with leases, business agreements, and rights of way involving energy 
development and transmission. Alaska Native Corporations are expressly 
excluded from the definition of ``Indian tribe'' for purposes of 25 
U.S.C. 3504. Under S. 2610, is it correct that Alaska Native 
Corporations would continue to be excluded from the provisions in 25 
U.S.C. 3504?
    Answer. The provisions of 25 U.S.C. 3504 are specific to the 
Department of Interior and outside the purview of the Department of 
Energy's Office of Indian Energy Policy and Programs.

    Question 3. Please list tribes that have applied for or received a 
cost-share waiver under 42 U.S.C. 16352(c)(2) and indicate the nature 
and extent of the cost-share reduction approved by the Secretary). 
Please also list tribes that were denied such a waiver and the reasons 
for such denial.
    Answer. In 2015, the Office of Indian Energy Policy and Programs 
(OIE) initially offered the ability of applicants to request cost share 
reductions under Funding Opportunity Announcement DE-FOA-0001021. Per 
the FOA, DOE evaluated the cost share reduction requests based on 
financial need, economic benefits, and environmental benefits. Of the 
forty-eight applications received, nine included requests for a 
reduction of cost share; however, only four of those applications were 
forwarded for comprehensive technical review. Of those four, only two 
were determined to have financial need through an assessment of: (1) 
net worth; (2) liquidity; (3) capital structure and solvency; (4) cash 
flow; and (5) grant funding (amount of income from Federal grants) 
using twelve financial indices, and only one of those was selected for 
negotiation of an award. As a result, a request for a cost share 
reduction from 50 percent to 10 percent for the Washoe Tribe of Nevada 
and California was processed and approved. Below is a list of the nine 
applicants who requested a cost share reduction and the nature and 
extent of the cost-share reduction approved or denied and the reasons 
for such denial: Chippewa Cree Tribe (application deemed ineligible and 
therefore not considered for an award or a cost share reduction); Fort 
Belknap Indian Community (recommended for a cost share reduction; 
however, the application was not selected for negotiation of an award); 
Klamath Tribes (application deemed ineligible and therefore not 
considered for an award or a cost share reduction); Klamath Tribes 
(separate application deemed ineligible and therefore not considered 
for an award or a cost share reduction); Native Village of Tanacross 
(application deemed ineligible and therefore not considered for an 
award or a cost share reduction); Tuntutuliak Community Services 
Association Electrical Services (application deemed ineligible and 
therefore not considered for an award or a cost share reduction); Warm 
Springs Power Enterprises (application deemed ineligible and therefore 
not considered for an award or a cost share reduction); Washoe Tribe of 
Nevada and California (selected for funding and granted a cost share 
reduction from 50 percent cost share to 10 percent); and the Yurok 
Tribe (application deemed ineligible and therefore not considered for 
an award or a cost share reduction).
    In 2016, under DE-FOA-0001390, OIE again offered the ability for 
applicants to request a cost share reduction and evaluated those 
requests based on financial need, economic benefits, and environmental 
benefits. Of the forty-seven (47) applications received, 11 included a 
request to reduce cost share. Of those applications with cost share 
reduction requests, four were selected for negotiation of award and 
three cost share reductions were recommended and ultimately granted to 
Alaska Native Tribal Health Consortium (reduction from 50 percent cost 
share to 32 percent), Little Big Horn College (reduction from 50 
percent cost share to 25 percent), and Hughes Village Council 
(reduction from 50 percent cost share to 16.2 percent). The White Earth 
Reservation Tribal Council application was selected for negotiation of 
an award but the Tribe was not provided a cost share reduction due to 
the lack of documented financial need. Below is a list of the 11 
applicants who requested a cost share reduction and the nature and 
extent of the cost-share reduction approved or denied and the reasons 
for such denial: Alaska Native Tribal Health Consortium (selected for 
funding and granted the requested cost share reduction from 50 percent 
cost share to 32 percent); Association of Village Council Presidents, 
Inc. (not recommended for a cost share reduction due to insufficient 
information needed to determine financial need; regardless, the 
application was not selected for an award or a cost share reduction); 
Hughes Village Council; (selected for funding and granted the requested 
cost share reduction from 50 percent cost share to 16.2 percent); 
Kokhanok Village Council (application deemed ineligible and therefore 
not considered for an award or a cost share reduction); Little Big Horn 
College (selected for funding and granted the requested cost share 
reduction from 50 percent cost share to 25 percent); Mesa Grande Band 
of Mission Indians (not recommended for a cost share reduction as the 
economic and environmental benefits required as part of the request 
were not adequately addressed; regardless, the application was not 
selected for an award or a cost share reduction); Navajo Nation, 
Cameron Chapter (application deemed ineligible and therefore not 
considered for an award or a cost share reduction); Paiute Indian Tribe 
of Utah (application deemed ineligible and therefore not considered for 
an award or a cost share reduction); Port Graham Village Council (not 
recommended for a cost share reduction due to lack of documented 
financial need; regardless, the application was not selected for an 
award or a cost share reduction); TDX Power, Inc. (not recommended for 
a cost share reduction as the economic and environmental benefits 
required as part of the request were not adequately addressed; 
regardless, the application was not selected for an award or a cost 
share reduction); White Earth Reservation Tribal Council (not 
recommended for a cost share reduction due to lack of documented 
financial need; however, selected for negotiation of an award and 
agreed to provide the required 50 percent cost share).
    In summary, of the ninety-five applications received under the two 
FOAs offering cost share reductions, twenty requests for reduced cost 
share were received. Of the five applications requesting cost share 
reductions and selected for negotiation of award, four cost share 
reductions were granted and only one request was denied due to the lack 
of documented financial need.

    Question 4. The Tribal Energy Loan Guarantee Program was authorized 
in 2005 and was first appropriated funding in FY 2017. What has 
prevented OIE from awarding a single tribal energy loan guarantee?
    Answer. OIE does not administer the TELGP. Authority to administer 
the Tribal Energy Loan Guarantee Program (TELGP) was delegated to the 
Department's Loan Programs Office (LPO) in February 2018. LPO issued a 
draft solicitation in March 2018 and then a final solicitation in July 
2018. Since the draft solicitation was issued, LPO has reached out to 
tribal nations and affiliated organizations to make them aware of 
TELGP. Based on LPO's experience with financing energy infrastructure 
under other authorities, the origination process leading up to the 
issuance of a loan guarantee, including pre-application consultation, 
application review, due diligence, and final negotiation of terms, can 
take several months or years.

    Question 5. Why does the Administration support eliminating the 
Tribal Energy Loan Guarantee program and propose to cancel the $8.5 
million appropriated for the cost of loan guarantees?
    Answer. The President's Fiscal Year (FY) 2021 budget request 
proposes to eliminate the Tribal Energy Loan Guarantee Program because 
the private sector is better positioned to finance the deployment of 
commercially viable energy and advanced vehicle manufacturing projects.
    Authorized by the Energy Policy Act of 2005, funding was first 
appropriated for the TELGP in FY 2017. In FY 2018, the Department 
issued the first Tribal Energy loan guarantee solicitation to support 
tribal energy development. Since the draft solicitation was issued, LPO 
has reached out to tribal nations and affiliated organizations to make 
them aware of TELGP. Based on LPO's experience with financing energy 
infrastructure under other authorities, the origination process leading 
up to the issuance of a loan guarantee, including pre-application 
consultation, application review, due diligence, and final negotiation 
of terms, can take several months or years. To date, TELGP has not 
issued a tribal energy loan guarantee.

    Question 6. What changes, if any, to the Tribal Energy Loan 
Guarantee program authorization would allow DOE to support its 
reauthorization as proposed in Section 2(c) of S. 2610?
    Answer. The President's FY 2021 Budget eliminates the Tribal Energy 
Loan Guarantee Program (TELGP) and proposes to cancel the $8,500,000 
appropriated for credit subsidy.

    Question 7. Does the reduction of carbon dioxide emissions in any 
way factor into the criteria of ``energy efficiency'' with regard to 
DOE decisions to award competitive grants under the Indian Energy 
Education Planning and Management Assistance program?
    Answer. The evaluation criteria for FOAs issued by the Office of 
Indian Energy Policy and Programs include consideration of the extent 
to which the proposed project provides economic (e.g., money saved, 
jobs, etc.) or other benefits to the Indian Tribe(s) and tribal 
community, as well as the outcomes of the proposed project, both of 
which include environmental benefits. The ``reduction of carbon dioxide 
emissions'', however, is not a specifically identified factor in the 
criteria of ``energy efficiency'' with regard to DOE decisions to award 
competitive grants under the Indian Energy Education Planning and 
Management Assistance program.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Stephen Guertin
    Question 1. Please provide a list of Tribes who have received 
funding for wildlife corridors in the last five years out of U.S. FWS' 
Tribal wildlife grants program, along with a brief summary of each 
project.
    Answer. The requested information is not compiled.

    Question 2. Please provide an update on the implementation of 
Secretarial Order 3362 and discuss efforts to collaborate or work 
cooperatively with Tribal wildlife agencies as part of that 
implementation.
    Answer. Secretarial Order 3362 (Order) was signed in February 2018, 
and a.Coordinator was hired in May 2018. In less than two years, the 
Department has made considerable progress working cooperatively and 
collaboratively with eleven State fish and wildlife agencies. In the 
first year of implementation, the Department developed State Action 
Plans based on information provided by the eleven respective States. 
These plans were updated in year two with new information and analysis. 
The Department has provided funding and technical support to help the 
States gather data to identify big game migration corridors or winter 
range areas. The Department has also provided funding, through an 
internal and external grant process, for habitat projects within the 
migration corridors or winter range areas.
    If Tribal land is identified within one of the State-defined 
priority migration corridors or winter range areas, those lands are 
eligible for project support under the Order. Partners, including 
Tribes, State agencies, non-profit organizations, then develop projects 
within these priority areas to address the needs identified in the 
State Action Plans.

    Question 3. Has climate change played any role in reducing the 
quantity or quality of biggame winter range and migration corridor 
habitat on federal lands under the management jurisdiction of the 
Department of the Interior? If so, how can wildlife corridor protection 
help to address the effects of climate change on wildlife?
    Answer. Of the States that have completed the process for 
identifying their priority big game migration corridors and winter 
range areas pursuant to Secretarial Order 3362 none have noted climate 
change as a direct risk factor.

    Question 4. Has the U.S. Fish and Wildlife Service observed any 
benefits of wildlife corridors in the protection of endangered or 
threatened wildlife?
    Answer. Yes, since habitat loss is one of the key factors affecting 
a majority of endangered or threatened species, connecting areas of 
suitable habitat is beneficial to many listed species. For example, the 
Recovery Plan for the Eastern Indigo Snake (2019), a federally 
threatened species, lists protection of habitat as the number one 
recovery action for the species, particularly where it provides 
connectivity between populations. Utilizing authority under the 
Cooperative Endangered Species Conservation Program, the Service 
recently approved a Recovery Land Acquisition grant to help connect 
tracts of suitable habitat for the eastern indigo snake, gopher 
tortoise (a candidate species), and other species along the Canoochee 
River in Bryan County, GA. The parcel provides a connected, protected 
corridor of habitat suitable for eastern indigo snakes, gopher 
tortoises, and other high-priority species associated with this 
ecosystem.

    Question 5. How would the Tribal Wildlife Corridor Act support 
current and future efforts to protect wildlife corridors on state and 
federal lands?
    Answer. S. 2891, the Tribal Wildlife Corridors Act, would allow 
Tribes to nominate a habitat corridor for fish, wildlife, or plants on 
Indian land to be designated as a ``Tribal Wildlife Corridor.'' This 
designation would further enable Tribes to consult with the Department 
and coordinate with the U.S. Forest Service to improve habitat 
connectivity between the Tribal Wildlife Corridor and federal public 
lands. The legislation would complement existing efforts of the 
Department and the U.S. Fish and Wildlife Service to protect wildlife 
corridors, including Secretarial Order 3362, to improve habitat quality 
in western big game winter range and migration corridors for pronghorn, 
elk, and mule deer; the North American Waterfowl Management Plan and 
migratory bird joint ventures, which are partnerships to conserve birds 
and habitats within certain geographic areas; Neotropical Migratory 
Bird Conservation Act grants, which conserve migratory bird habitat on 
a continental scale; and the National Fish Passage Program, which works 
with partners to improve fish habitat, remove barriers to fish 
movement, and reconnect aquatic habitats.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
